                        U.S. Department of Agriculture
                           Office of Inspector General
                                      Northeast Region




             Audit Report
    Food Safety and Inspection Service
Effectiveness Checks for the 2002 Pilgrim’s
               Pride Recall




                              Report No. 24601-03-Hy
                                           June 2004
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                          Washington D.C. 20250




DATE:           June 29, 2004

REPLY TO
ATTN OF:        24601-03-Hy

SUBJECT:        Food Safety and Inspection Service
                Effectiveness Checks for the 2002 Pilgrim’s Pride Recall

TO:             Barbara J. Masters
                Acting Administrator
                Food Safety and Inspection Service

ATTN:           Ronald F. Hicks
                Assistant Administrator
                Office of Program Evaluation, Enforcement and Review


This report presents the results of our audit of Food Safety and Inspection Service’s effectiveness
checks for the 2002 Pilgrim’s Pride recall. Your response to the official draft, dated
May 20, 2004, is included as exhibit A. Excerpts of your response and the Office of Inspector
General’s (OIG) position are incorporated into the Findings and Recommendations section of the
report. Based on your response, management decision has been reached on Recommendation
No. 4. Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer. Management decisions for Recommendation
Nos. 1, 2, 3, and 5 can be reached once you have provided the additional information outlined in
the report section OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days describing the
corrective actions taken or planned, and the timeframes for implementation of the remaining
recommendations. Please note that the regulation requires management decision to be reached on all
recommendations within 6 months of report issuance.


        //s//

ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Food Safety and Inspection Service Effectiveness Checks for the 2002 Pilgrim’s Pride
Recall (Audit Report No. 24601-03-Hy)

Results in Brief                  In October 2002, the Pilgrim’s Pride Corporation (Pilgrim’s Pride) recalled
                                  approximately 27.4 million pounds of ready-to-eat poultry products
                                  potentially contaminated with Listeria monocytogenes, the largest recall in
                                  2002. Pilgrim’s Pride had distributed this product nationwide and exported it
                                  to foreign countries. Because of the recall’s magnitude, the Office of
                                  Inspector General (OIG) evaluated the Food Safety and Inspection Service’s
                                  (FSIS) efforts to verify the effectiveness of the recall. Although FSIS
                                  determined in July 2003 that the recall was successful, we found an
                                  overwhelming number of significant discrepancies on the agency’s
                                  effectiveness check forms that call this conclusion into question.

                                  To verify the effectiveness of a recall, FSIS compliance officers contact a
                                  sufficient number of customers to ensure that: (1) the product manufacturer
                                  or distributor provides adequate notice of the recall to all customers, and
                                  (2) customers locate and control the recalled product. The compliance
                                  officers record the results of their verifications on FSIS Form 8400-4, Report
                                  of Recall Effectiveness. Although FSIS based its conclusion that the
                                  Pilgrim’s Pride recall was effective on these forms, we found
                                  389 discrepancies on the 582 FSIS effectiveness check forms we examined.1

                                  We attributed this high error rate to the careless approach FSIS compliance
                                  officers and supervisory personnel took in overseeing the recall. Specifically,
                                  some FSIS compliance officers failed to obtain pertinent data while many
                                  others did not fully analyze and act on the information they collected.
                                  Furthermore, FSIS supervisors did not adequately review the effectiveness
                                  check forms for completeness and accuracy or to ensure that all problems had
                                  been resolved. This type of supervisory oversight would have detected many
                                  of the discrepancies we noted, which fell into several categories:

                                  • No Reconciliation. For 166 of the 582 effectiveness check forms we
                                    reviewed, FSIS compliance officers did not reconcile the amount of
                                    product purchased by customers with the amount recorded on the
                                    Pilgrim’s Pride distribution list. For example, a food distributor in
                                    Virginia purchased almost 22,000 pounds of recalled product according to
                                    the Pilgrim’s Pride distribution list. When the compliance officer visited
                                    this distributor, he recorded the amount of product purchased as “?” or
                                    unknown. Similar problems occurred in each of the four FSIS districts we
                                    reviewed. Although the compliance officers explained that they normally
                                    reconcile the amount of product purchased by the customer with the

1
    Some of the effectiveness check forms contained more than one discrepancy.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                                  i
                                     amount recorded as sold by Pilgrim’s Pride, the effectiveness check forms
                                     did not support this.

                                • No Evidence of Followup. For 93 of the 582 effectiveness checks,
                                  compliance officers did not document their followup to ensure that
                                  customers had located and controlled recalled product. In one case, an
                                  FSIS compliance officer visited a Delaware detention center where eight
                                  pieces of recalled turkey breast were defrosting in the sink to be served
                                  that night. The compliance officer wrote on his effectiveness check form,
                                  “The eight pieces were taken out of the water and [the center’s food
                                  service supervisor] stated that they would be returned.” According to the
                                  compliance officer, he contacted the center 2 days later and determined
                                  that the primary customer had picked up the product. While we
                                  confirmed that the product had been picked up, the compliance officer did
                                  not document this information as a followup effectiveness check.

                                We reported similar weaknesses in our reports on FSIS’ oversight of the
                                ConAgra recall2 and FSIS’ oversight of the Listeria outbreak in the
                                Northeastern United States.3 In response to our recommendations, FSIS
                                agreed to strengthen recall controls and procedures. Until it corrects the
                                problems we identified, FSIS’ conclusions regarding the effectiveness of food
                                safety recalls may be based on inaccurate and incomplete information.

                                To further strengthen the recall process, FSIS needs to correct three other
                                problems we identified during the present review:

                                •    Information Used in Assessment Not Documented. According to FSIS
                                     officials, the agency relies on information other than effectiveness checks
                                     to determine whether a recall is effective. However, agency procedures
                                     do not describe what information is considered or how the information is
                                     assessed.

                                •    Not Performed Timely. Compliance officers performed 72 of the 582
                                     effectiveness checks more than 30 days after customers received notice of
                                     the recall.

                                •    No Selection Methodology. Compliance officers conducted effectiveness
                                     checks at businesses that did not purchase any of the recalled product
                                     because FSIS does not have a process for selecting customers for
                                     effectiveness checks.



2
    Audit Report No. 24601-2-KC, “Food Safety and Inspection Service Oversight of Production Process and Recall at ConAgra Plant
    (Establishment 969),” issued September 30, 2003.
3
    Audit Report No. 24601-2-Hy, “Food Safety and Inspection Service Oversight of the Listeria Outbreak in the Northeastern United
    States,” issued June 9, 2004.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                                                  ii
                   In addition to the FSIS effectiveness checks, we analyzed 40 of the 784
                   effectiveness checks conducted by Pilgrim’s Pride personnel, which we found
                   were adequately performed.

Recommendations
In Brief           We recommend that FSIS document the information used to assess whether a
                   recall is effective. Further, FSIS needs to implement controls to ensure that it
                   adequately supports its conclusions regarding future recalls. FSIS needs to
                   examine all of the effectiveness check forms for the Pilgrim’s Pride recall to
                   ensure that the information recorded is accurate and complete. Finally, FSIS
                   needs to implement a process for selecting customers for effectiveness checks
                   and establish timeframes for completing and reviewing effectiveness checks.

Agency Response    FSIS generally agreed with the report’s recommendations. We have
                   incorporated excerpts from FSIS’ response in the Findings and
                   Recommendations section of this report, along with the OIG position. FSIS’
                   response is included as Exhibit A.

OIG Position       Based on FSIS’ response, we were able to reach management decision on one
                   of the report’s five recommendations. The Findings and Recommendations
                   section of this report provides the details of the additional information needed
                   to reach management decision on Recommendation Nos. 1, 2, 3, and 5.




USDA/OIG-AUDIT No. 24601-03-Hy                                                                   iii
Table of Contents
Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. FSIS Effectiveness Checks .............................................................................................. 3

        Finding 1             FSIS Oversight of the Pilgrim’s Pride Recall Was Ineffective ............................... 3
                                  Recommendation No. 1.................................................................................... 8
                                  Recommendation No. 2.................................................................................... 9
                                  Recommendation No. 3.................................................................................... 9
                                  Recommendation No. 4.................................................................................. 10
                                  Recommendation No. 5.................................................................................. 11

Scope and Methodology........................................................................................................................ 13

Exhibit A – Agency Response .............................................................................................................. 15




USDA/OIG-AUDIT No. 24601-03-Hy                                                                                                                   iv
Background and Objectives
Background                         As the public health regulatory agency of the U.S. Department of Agriculture
                                   (USDA), Food Safety and Inspection Service (FSIS) is responsible for
                                   ensuring that meat and poultry products are safe, wholesome, and accurately
                                   labeled. When there is reason to believe that product may be adulterated (i.e.,
                                   injurious to health or unfit for human consumption), the manufacturer
                                   voluntarily removes the product from commerce, through a recall. Although
                                   recalls are voluntary, FSIS oversees all recall activities by official
                                   establishments. If a company refuses to recall a meat or poultry product that
                                   may cause health problems or death, FSIS has legal authority to detain and/or
                                   seize those products in commerce.

                                   According to FSIS procedures,4 FSIS compliance officers must perform a
                                   sufficient number of checks on the effectiveness of a product recall. These
                                   checks verify that: (1) the firm conducting the recall provides adequate notice
                                   about the recall to all customers, and (2) customers locate and control
                                   products according to the recalling firm’s instructions. Compliance officers
                                   record the results of their verifications on FSIS Form 8400-4, Report of
                                   Recall Effectiveness.

                                   When illnesses associated with Listeria monocytogenes began appearing in
                                   the Northeastern United States in September 2002, FSIS initiated a vigorous
                                   sampling of ready-to-eat poultry products. These products included luncheon
                                   and deli-style meats. In a press release dated October 2, 2002, FSIS stated
                                   that the agency, in cooperation with the Centers for Disease Control and
                                   Prevention and State health officials, was continuing its aggressive
                                   investigation into the origins of the outbreak of Listeria monocytogenes,
                                   which had led to 6 deaths and 36 illnesses in 8 States.

                                   On October 9, 2002, FSIS announced that the Pilgrim’s Pride Corporation,
                                   doing business as Wampler Foods Inc., a Franconia, Pennsylvania
                                   establishment, voluntarily recalled approximately 295,000 pounds of fresh
                                   and frozen ready-to-eat poultry products possibly contaminated with Listeria
                                   monocytogenes. In this announcement, FSIS reported that it had collected a
                                   microbiological investigative sample at the plant on October 2, 2002, which
                                   returned with positive results for Listeria monocytogenes. However, FSIS
                                   reported that there was no link between the recalled products and the Listeria
                                   monocytogenes illnesses in the Northeastern United States.

                                   On October 12, 2002, FSIS announced that Pilgrim’s Pride was expanding the
                                   voluntary recall to approximately 27.4 million pounds of fresh and frozen

4
    FSIS Directive 8080.1, Revision 3, dated January 19, 2000, Recall of Meat and Poultry Products.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                                   1
                   ready-to-eat poultry products produced between May 1, 2002 and
                   October 11, 2002. Pilgrim’s Pride had distributed these products to retail
                   stores, restaurants, and institutions nationwide as well as overseas; USDA
                   purchased approximately 1.7 million pounds for distribution to schools and
                   other recipient agencies. As part of this announcement, FSIS reported that,
                   while product samples from various days of production were all negative,
                   environmental sampling in the plant demonstrated the presence of the Listeria
                   monocytogenes strain matching the October 9, 2002, recalled product.
                   Pilgrim’s Pride voluntarily suspended operations of the plant in Franconia,
                   Pennsylvania. Production resumed on November 14, 2002, when Pilgrim’s
                   Pride proposed an adequate corrective action plan to eliminate potential
                   Listeria contamination. FSIS also concurrently initiated finished product
                   sampling to ensure that the corrective action plan was adequately
                   implemented.

                   FSIS terminated the Pilgrim’s Pride recall on July 11, 2003, after concluding
                   that the recall had been effective. At that time, Pilgrim’s Pride had reported
                   the recovery of more than 5.5 million pounds of recalled product, which was
                   either stored at several warehouses pending FSIS-approved disposition or
                   destroyed by customers. According to Pilgrim’s Pride, the rest of the recalled
                   product, almost 21.9 million pounds, was consumed in the marketplace or
                   otherwise disposed of.

Objectives         Our objective was to evaluate the adequacy of the effectiveness checks
                   performed for the Pilgrim’s Pride recall. This included an evaluation of the
                   effectiveness checks performed by FSIS District Offices and Pilgrim’s Pride
                   personnel.

                   To accomplish this objective, we obtained an understanding of FSIS’
                   procedures for performing effectiveness checks and analyzed the
                   582 effectiveness checks performed by 4 FSIS District Offices. We also
                   obtained an understanding and analyzed a sample of the effectiveness checks
                   performed by Pilgrim’s Pride. Our audit work covered the period from when
                   the Pilgrim’s Pride recall began in October 2002 through August 2003. We
                   performed fieldwork from April 2003 through August 2003.




USDA/OIG-AUDIT No. 24601-03-Hy                                                                  2
Findings and Recommendations
Section 1. FSIS Effectiveness Checks

                                  On July 11, 2003, FSIS concluded that the Pilgrim’s Pride recall of
                                  27.4 million pounds of ready-to-eat poultry products had been effective. To
                                  make this determination, the agency relied on effectiveness checks completed
                                  by FSIS compliance officers from its 15 District Offices. However, we noted
                                  a significant number of discrepancies in the data recorded on the
                                  582 effectiveness check forms we reviewed. Accordingly, we concluded that
                                  these forms did not provide a reliable basis for evaluating the recall’s
                                  effectiveness.

                                  On March 16, 2004, we held an exit conference with FSIS officials to discuss
                                  the draft report. At this meeting, FSIS officials explained that the agency’s
                                  conclusion that a recall is effective is based on more than the compliance
                                  officers’ completion of effectiveness checks. Other information considered
                                  includes such things as consumer notification and epidemiological data
                                  regarding the product being recalled.         However, FSIS’ documented
                                  methodology for assessing the effectiveness of a recall only describes the
                                  agency’s use of effectiveness checks. FSIS did not provide documentation to
                                  support the other information considered.

Finding 1                         FSIS Oversight of the Pilgrim’s Pride Recall Was Ineffective

                                  Of the 582 FSIS effectiveness check forms we reviewed, 319 contained
                                  discrepancies in information. This high error rate occurred because FSIS
                                  compliance officers did not adequately assess and act on the information they
                                  collected. In some cases, compliance officers did not obtain the information
                                  necessary to complete the forms. Furthermore, FSIS supervisory personnel
                                  did not review the effectiveness check forms to ensure they were properly
                                  completed and that all problems had been resolved, which would have
                                  detected many of the 389 discrepancies we noted.5 As a result, FSIS did not
                                  have reasonable assurance that potentially adulterated product bearing the
                                  USDA seal of inspection had been retrieved from commerce.

                                  According to FSIS procedures, compliance officers perform checks on the
                                  effectiveness of a product recall to verify that: (1) the firm conducting the
                                  recall provides adequate notice about the recall to all customers, and
                                  (2) customers locate and control products according to the recalling firm’s
                                  instructions. In the event that effectiveness checks disclose that customers
                                  have not been notified of the product recall or have not acted as requested by


5
    Some of the effectiveness check forms contained more than one discrepancy.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                                 3
                   the recalling firm, FSIS program personnel must detain any products posing a
                   health risk and notify the recalling firm.

                   Amount of Product Purchased Not Reconciled

                   Of the 582 effectiveness checks we reviewed, 103 were of primary customers
                   (i.e., customers that purchased product directly from Pilgrim’s Pride). The
                   remaining 479 effectiveness checks were of secondary customers (i.e.,
                   customers that purchased product from the primary customers). For the
                   primary customers, FSIS compliance officers did not always reconcile the
                   amount of product purchased with the Pilgrim’s Pride distribution list.
                   Compliance officers also did not obtain sufficient information from the
                   primary customers in order to reconcile the amount of product purchased by
                   secondary customers. As a result, FSIS had no assurance that the recalled
                   product was properly accounted for and removed from commerce.

                   For 50 of the 103 effectiveness checks of primary customers, compliance
                   officers did not reconcile the amount of recalled product purchased by the
                   customer with the amount shown on the Pilgrim’s Pride distribution list. For
                   these 50 customers, the amount not reconciled totaled over 846,000 pounds.
                   In one case, a food distributor in Virginia purchased almost 22,000 pounds of
                   recalled product according to the Pilgrim’s Pride distribution list. When the
                   compliance officer visited the distributor, he recorded the amount of product
                   purchased as “?” or unknown. The compliance officer explained that he
                   normally compares the amount of product purchased as stated by the
                   customer with the amount of product shown on the Pilgrim’s Pride
                   distribution list. However, he could not explain why he did not follow this
                   process for the Virginia distributor. While compliance officers in all of the
                   four districts we reviewed stated that they reconciled the purchase amounts,
                   the effectiveness check forms for the 50 customers in question indicated that
                   none of them did so.

                   In addition, we determined that FSIS compliance officers did not reconcile
                   the amount of product purchased by secondary customers. For 116 of the 479
                   secondary effectiveness checks, compliance officers did not document the
                   amount of product purchased on the form or recorded it as unknown.
                   Although we attempted to reconcile the amount of product purchased, the
                   compliance officers had not retained sufficient information. Specifically, the
                   compliance officers either did not obtain distribution information from
                   primary customers or obtained information irrelevant to the amount of
                   product purchased by secondary customers.

                   For example, we found that the compliance officer who visited the Virginia
                   food distributor did not retain the firm’s distribution list in order to reconcile
                   the amount of product purchased by secondary customers. Instead, he noted
                   on the effectiveness check form that the firm sold product to 58 secondary
USDA/OIG-AUDIT No. 24601-03-Hy                                                                      4
                   customers, 5 of which he selected for effectiveness checks. For two of the
                   five secondary customers, the amount the compliance officer recorded on the
                   effectiveness check forms did not agree with the amount on the firm’s
                   distribution list; the compliance officer overstated the amount purchased by
                   approximately 13 pounds. For two of the other secondary customers, the
                   compliance officer reported the amount of product purchased as unknown.
                   According to the firm’s distribution list, these customers purchased
                   approximately 403 pounds. The fifth customer the compliance officer
                   selected for review, a Virginia public school district, did not purchase any of
                   the recalled product. (See page 7 for details on problems with selecting
                   customers for effectiveness checks.)

                   No Evidence of Followup

                   FSIS compliance officers did not always document followup effectiveness
                   checks on product being held by customers pending further instructions. We
                   noted this problem on 93 of the 582 effectiveness check forms we reviewed,
                   further diminishing the agency’s assurance that customers controlled
                   potentially contaminated product.

                   In one case, a compliance officer did not document the followup visit he made
                   to ensure that a Delaware detention center returned recalled product to a
                   primary customer. At the time of the initial visit, October 24, 2002, the center
                   had four cases of recalled product in inventory, approximately 70 pounds.
                   The compliance officer noted on the effectiveness check form that eight
                   pieces of recalled turkey breast were defrosting in a sink of water, to be
                   served that night. According to the form, the eight pieces were taken out of
                   the water and the center’s food service supervisor stated that the product
                   would be returned. The compliance officer told us that he did not detain the
                   recalled product because the customer agreed to return it. He stated that he
                   contacted the center 2 days later and determined that the primary customer
                   had picked up the product. While we confirmed this with the center, the
                   compliance officer did not document this information as a followup
                   effectiveness check. He explained that he overlooked documenting the
                   followup in his haste to complete his assigned effectiveness checks.

                   Initial Corrective Actions Underway, Further Strengthening Needed

                   In our report on the ConAgra recall, we reported similar weaknesses in FSIS
                   oversight of the recall process. To address these issues, we recommended that
                   FSIS implement a management control process to ensure that district
                   managers comply with recall procedures and that compliance officers’
                   determinations are reviewed, analyzed, and acted on.              We further
                   recommended that FSIS reassess its policies and procedures for managing the
                   recall process. Specifically, we recommended that FSIS establish criteria for
                   completing effectiveness checks and for determining recall effectiveness.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                    5
                   FSIS agreed with these recommendations and implemented interim guidelines
                   in March 2003. While these new guidelines do not establish criteria for
                   assessing recall effectiveness, FSIS has convened a workgroup to consider the
                   agency’s overall policies and procedures for managing the recall process and
                   effectiveness checks. On May 24, 2004, FSIS issued Directive 8080.1,
                   Revision 4, “Recall of Meat and Poultry Products.” This Directive describes
                   the responsibilities of industry and FSIS personnel regarding the recall of
                   FSIS-inspected meat and poultry products. We continue to work with the
                   agency to reach agreement on an acceptable corrective action plan.

                   We also reported related weaknesses in our report on FSIS oversight of the
                   Listeria outbreak in the Northeastern United States. To improve FSIS
                   oversight of recall effectiveness checks, we recommended that FSIS train
                   compliance officers on the importance of accurately performing and
                   documenting effectiveness checks. FSIS agreed with this recommendation
                   and initiated training in October 2003. This training included instructions and
                   guidance on conducting effectiveness checks. In addition, FSIS expanded its
                   talent pool for conducting and following up on effectiveness checks through
                   the use of trained enforcement officers and veterinarians. According to FSIS,
                   250 field personnel were trained on risk-based recall effectiveness procedures
                   in April 2004.

                   Accordingly, we are not making additional recommendations in regard to
                   reconciliation and followup at this time. However, to further strengthen the
                   recall process, FSIS needs to document the factors considered and the
                   methodology used to conclude whether a recall is effective. FSIS also needs
                   to ensure that it conducts effectiveness checks in a timely manner and with
                   appropriate customers.

                   Process for Assessing the Effectiveness of a Recall Not Documented

                   According to documentation closing the Pilgrim’s Pride recall, dated
                   July 11, 2003, FSIS relied on the effectiveness checks completed by the
                   agency’s compliance officers to conclude that the recall was effective.
                   However, at the exit conference for this audit on March 16, 2004, FSIS
                   officials explained that they relied on other information including such things
                   as consumer notification and epidemiological data to conclude the recall was
                   effective. FSIS officials explained that consumers are notified of the recall in
                   a variety of ways including media reports, press releases, and websites of the
                   agency and the recalling firm. FSIS officials also explained that they monitor
                   epidemiological data maintained by the Centers for Disease Control and
                   Prevention and State health officials for additional illnesses associated with
                   the recalled product.

                   Subsequent to the exit conference, we re-reviewed FSIS’ recall policy in place
                   at the time of the Pilgrim’s Pride recall. We also reviewed FSIS
USDA/OIG-AUDIT No. 24601-03-Hy                                                                    6
                   Directive 8080.1, Revision 4, “Recall of Meat and Poultry Products,” issued
                   May 24, 2004. Both of these documents described FSIS’ sole reliance on
                   effectiveness checks to determine whether a recall is effective. FSIS’ recall
                   procedures should document all the information the agency considers for
                   assessing the effectiveness of a recall and how this assessment is completed.
                   The procedures should also include controls to ensure that FSIS adequately
                   supports its conclusions regarding the effectiveness of future recalls.

                   Effectiveness Checks Not Performed in a Timely Manner

                   Compliance officers performed 72 of the 582 effectiveness checks more than
                   30 days after the customers received notice of the recall—25 of these were up
                   to 40 days after customers received the recall notice, and the remaining 47
                   were as many as 53 days after the customers received notice. While FSIS
                   procedures do not specify the timeframes required for conducting
                   effectiveness checks, the agency must be responsible for ensuring that
                   potentially contaminated product is identified and removed from commerce in
                   a timely manner.

                   We noted that one compliance officer performed 68 of the 72 untimely
                   effectiveness checks. The compliance officer acknowledged that the checks
                   were not performed in a timely manner. He explained that other work
                   priorities, such as performing effectiveness checks for the ConAgra recall and
                   collecting samples from product returned to Pilgrim’s Pride, prevented him
                   from completing the checks sooner. He added that other compliance officers
                   were unavailable to assist him due to their own workloads for Pilgrim’s Pride
                   recall.

                   Additionally, seven of the forms we reviewed did not state the date of the
                   effectiveness check. As a result, we could not determine whether compliance
                   officers performed those effectiveness checks in a timely manner.

                   Inappropriate Customers Selected for Effectiveness Checks

                   In our followup on the Virginia public school district mentioned previously,
                   we verified that the school district did not purchase any of the recalled
                   product. The compliance officer who visited the district for a secondary
                   effectiveness check explained that he used a list of the primary distributor’s
                   customers to select a sample of secondary customers. However, the
                   compliance officer did not narrow down the list of secondary customers to
                   include only those that purchased recalled product. This occurred because
                   FSIS had not developed a method for selecting customers for effectiveness
                   checks.

                   We found that this was not an isolated instance. In Puerto Rico, two FSIS
                   compliance officers performed effectiveness checks at 29 entities that did not
USDA/OIG-AUDIT No. 24601-03-Hy                                                                  7
                   purchase any of the recalled product. In addition to reducing public
                   confidence in FSIS recall activities, these misguided selections meant that
                   other customers that did purchase recalled product went unchecked.

                   On May 24, 2004, FSIS issued Directive 8080.1, Revision 4, “Recall of Meat
                   and Poultry Products.” This Directive included information on: (1) the
                   timeframes for performing effectiveness checks, and (2) the process to be
                   used for selecting customers to contact.

Recommendation No. 1

                   Document all information considered by FSIS for assessing the effectiveness
                   of a recall and how this assessment is made.

                   Agency Response.

                   Effectiveness checks are conducted by FSIS inspection program personnel to
                   verify that recalling firms have been diligent and successful in notifying and
                   advising the consignees of the need to retrieve and control recalled product
                   and the consignees have responded accordingly. Recalling firms are
                   responsible for developing and implementing effective recall strategies used
                   to notify all consignees and to remove recalled product from commerce.
                   Through effectiveness checks, FSIS verifies that the recall actions are being
                   conducted in an effective manner.

                   FSIS is revising FSIS Directive 8080.1, “Recall of Meat and Poultry
                   Product.” In the revised directive, FSIS will provide definite criteria the
                   Agency will use in considering the effectiveness of a recall. In particular, the
                   revised directive will note that recalls will be deemed effective when the
                   number of consignee checks that are found to have the product available to
                   the public is less than the critical number in the sampling plan applied to the
                   effectiveness check.

                   The revised FSIS Directive 8080.1 will be issued by June 2004.

                   OIG Position.

                   FSIS’ response did not address the recommendation. At the exit conference
                   on March 16, 2004, FSIS officials explained that they relied on other
                   information in addition to effectiveness checks to conclude the recall was
                   effective. This other information included such things as consumer
                   notification and epidemiological data. On May 24, 2004, FSIS issued
                   Directive 8080.1, Revision 4, “Recall of Meat and Poultry Products.”

                   FSIS’ response to the recommendation and the recently issued
                   Directive 8080.1 continue to describe the agency’s sole reliance on
USDA/OIG-AUDIT No. 24601-03-Hy                                                                    8
                   effectiveness checks to determine whether a recall is effective. To reach
                   management decision, FSIS needs to incorporate into Directive 8080.1 all of
                   the information it considers for assessing the effectiveness of a recall and how
                   this assessment is made. In the interim, FSIS needs to implement
                   compensating controls to ensure all relevant information is considered when
                   the agency assesses the effectiveness of a recall.

Recommendation No. 2

                   Implement controls to ensure that FSIS adequately supports its conclusions
                   regarding the effectiveness of future recalls.

                   Agency Response.

                   FSIS is revising FSIS Directive 8080.1, Recall of Meat and Poultry
                   Products.” In the updated directive, the role and responsibility of the Deputy
                   District Managers (DDMs) during a recall is specifically identified. Each
                   DDM will serve as the District Recall Officer (DRO) in his or her district and
                   be responsible for coordinating the recall activities. The revised directive
                   will outline the criteria the DRO will use in order to determine the
                   effectiveness of a recall. The DRO will conduct on-site reviews of the
                   recalling firm’s effectiveness checks including confirmed recall notices,
                   receipts of returned product, telephone call reports, and email confirmations.

                   The revised FSIS Directive 8080.1 will be issued by June 2004.

                   OIG Position.

                   We do not accept FSIS’ management decision. FSIS issued Directive 8080.1,
                   Revision 4, on May 24, 2004. This Directive did not identify the controls
                   FSIS would implement to ensure that its conclusions regarding the
                   effectiveness of future recalls are adequately supported. The Directive
                   continues to describe the agency’s sole reliance on effectiveness checks to
                   determine whether a recall is effective. The Directive did not describe the
                   reliance on consumer notification and epidemiological data to determine the
                   effectiveness of the recall. To reach management decision, FSIS needs to
                   incorporate these controls into Directive 8080.1. In the interim, FSIS needs
                   to implement compensating controls to ensure that FSIS adequately supports
                   its conclusions regarding the effectiveness of future recalls.

Recommendation No. 3

                   Examine all of the effectiveness checks performed for the Pilgrim’s Pride
                   recall to ensure that the information recorded on the forms is accurate and
                   complete. Provide feedback to individual compliance officers when patterns
                   of errors and omissions are noted.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                    9
                   Agency Response.

                   FSIS completed the Pilgrim’s Pride recall and officially closed it. To cost
                   effectively address the OIG’s concerns, the FSIS Office of Program
                   Evaluation, Enforcement and Review (OPEER) will complete a review of the
                   Pilgrim’s Pride effectiveness checks and related recall reports to summarize
                   the accuracy and completeness of the effectiveness checks. OPEER will
                   complete its review and provide feedback to the FSIS Office of Field
                   Operations by December 2004.

                   OIG Position.

                   We generally agree with FSIS’ proposed corrective action. However, we are
                   concerned that the target date for completing the review is December 2004.
                   To reach management decision, a timelier plan of action is needed.

                   Additionally, it is important that the OPEER review do more than
                   “summarize the accuracy and completeness of the effectiveness checks.” Our
                   audit showed that the effectiveness checks were neither accurate nor
                   complete. To reach management decision, the review should ensure the
                   resolution of all discrepancies. To the extent that discrepancies can no longer
                   be resolved, due to the passage of time, the review should identify specific
                   errors and omissions and detail the actions taken to preclude their recurrence
                   (e.g., direct feedback to the responsible compliance officers).

                   To reach management decision, the results of OPEER’s review should be
                   incorporated into training material for FSIS personnel. In addition, the review
                   results should be incorporated into FSIS Directive 8080.1, “Recall of Meat
                   and Poultry Products,” to strengthen FSIS’ oversight of recall activities.

Recommendation No. 4

                   Develop and implement a process for selecting customers for effectiveness
                   checks.

                   Agency Response.

                   FSIS is revising FSIS Directive 8080.1, “Recall of Meat and poultry
                   Products.” In the revised directive, FSIS will implement a risk-based
                   process for selecting customers for effectiveness checks. Under a new,
                   three-tiered classification system for recalls, the number of effectiveness
                   checks inspection program personnel will conduct will be based on risk,
                   dependent on the class of recall and the number of customers. Upon notice of
                   the recall, the DRO will immediately request information and records, in
                   accordance with Title 9 of the Code of Federal Regulations § 320.1, of the
USDA/OIG-AUDIT No. 24601-03-Hy                                                                 10
                   recalling firm and the subsequent consignees regarding the distribution of
                   recalled product. The information is expected to contain sufficient details to
                   allow FSIS personnel to understand the distribution patterns and make
                   contacts without further delay. The DRO will sort the information according
                   to geographical location and coordinate field personnel to contact the
                   consignees.

                   The revised FSIS Directive 8080.1 will be issued by June 2004.

                   OIG Position.

                   We accept FSIS’ management decision. FSIS issued Directive 8080.1,
                   Revision 4, on May 24, 2004, which incorporated the cited improvements
                   into the agency’s recall procedures. For final action, FSIS needs to provide
                   Office of the Chief Finance Officer with documentation that the agency has
                   implemented the procedures for selecting customers for effectiveness checks.

Recommendation No. 5

                   Develop and implement timeframes in which effectiveness checks must be
                   completed and reviewed.

                   Agency Response.

                   FSIS is revising FSIS Directive 8080.1, “Recall of Meat and poultry
                   Products.” In the updated directive, timeframes are specified for initiating
                   and reporting verification activities within FSIS. Recall activities by firms
                   will start immediately after a decision has been made that a recall should be
                   initiated or when notification of a recall is received. The directive outlines
                   the timetable for both beginning and completing FSIS verification activities.
                   FSIS verification activities will begin as soon as possible within a period of
                   3 days for a Class I recall, 5 days for a Class II recall, and 10 days for a
                   Class III recall. Similarly, FSIS verification activities will be substantially
                   completed within a period of 10 days for a Class I recall, 12 days for a
                   Class II recall, and 17 days for a Class III recall.

                   The revised FSIS Directive 8080.1 will be issued by June 2004.

                   OIG Position.

                   We do not accept FSIS’ management decision. FSIS issued Directive
                   8080.1, Revision 4, on May 24, 2004. This Directive did not identify the
                   timeframes in which a second party (i.e., DRO) will review the accuracy of
                   effectiveness checks. To reach management decision on this
                   recommendation, FSIS needs to incorporate this into Directive 8080.1. In the

USDA/OIG-AUDIT No. 24601-03-Hy                                                                 11
                   interim, FSIS needs to implement compensating controls to ensure that
                   effectiveness checks are reviewed.




USDA/OIG-AUDIT No. 24601-03-Hy                                                        12
Scope and Methodology
                   We focused our audit on regulations and documentation applicable to the
                   Pilgrim’s Pride recall of ready-to-eat poultry products. Our audit work
                   covered the period October 2002, when the Pilgrim’s Pride began, through
                   August 2003.       We conducted fieldwork from April 2003 through
                   August 2003, including visits to FSIS Headquarters, FSIS District Offices, the
                   Pilgrim’s Pride administrative office, and selected primary and secondary
                   Pilgrim’s Pride customers.

                   To evaluate the adequacy of FSIS effectiveness checks performed for the
                   Pilgrim’s Pride recall, we identified and reviewed the policies and procedures
                   for conducting a recall of meat and poultry products. These included FSIS
                   Directive 8080.1, Revision 3 “Recall of Meat and Poultry Products,” dated
                   January 2000, and the Recall Protocol, dated September 1997. We also
                   interviewed appropriate FSIS personnel to gain an understanding of the
                   effectiveness check process. We compared these procedures to those used by
                   compliance officers for the Pilgrim’s Pride recall to identify weaknesses in
                   the process.

                   We selected for review the effectiveness checks performed by compliance
                   officers at 4 of the 15 FSIS District Offices involved in the recall:

                   • The Philadelphia District Office, because it was the lead district;
                   • the Beltsville District Office, because it was the district where the primary
                     Pilgrim’s Pride collection center was located; and
                   • the Albany and Atlanta District Offices, due to the large number of
                     effectiveness checks they performed.

                   We examined all 582 effectiveness check forms completed by compliance
                   officers in these four districts to determine if they were complete and
                   accurate. When necessary, we contacted compliance officers to resolve
                   discrepancies noted on the effectiveness checks.

                   We validated the information recorded by FSIS compliance officers on the
                   effectiveness checks by visiting two primary customers (located in Virginia
                   and Maryland), reviewing their records, and contacting a sample of secondary
                   customers (located in Virginia, Maryland, and Delaware). We judgmentally
                   selected these primary and secondary customers based on the discrepancies
                   noted in the effectiveness check forms.

                   At the Pilgrim’s Pride administrative office located in Broadway, Virginia,
                   we obtained an understanding of the process used to notify customers of the
                   recall. We also reviewed the documentation on file to substantiate that
                   Pilgrim’s Pride notified its customers of the recall.
USDA/OIG-AUDIT No. 24601-03-Hy                                                                 13
                   Our audit was conducted in accordance with generally accepted Government
                   auditing standards.




USDA/OIG-AUDIT No. 24601-03-Hy                                                           14
Exhibit A – Agency Response
                                 Page 1 of 4




USDA/OIG-AUDIT No. 24601-03-Hy          15
                                 Page 2 of 4




USDA/OIG-AUDIT No. 24601-03-Hy            16
                                 Page 3 of 4




USDA/OIG-AUDIT No. 24601-03-Hy          17
Page 4 of 4
